No.

-K4

IN THE
SUPREME COURT OF THE UNITED STATES
NORMAN DOUGLAS DIAMOND - PETITIONER
v.

UNITED STATES AND UNKNOWN EMPLOYEES
OF THE UNITED STATES - RESPONDENTS
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
Norman Douglas Diamond, pro se
5404 Alexander Crescent
Niagara Falls, Ontario, L2E 2T8
Canada
Tel.: 905-371-6494
e-mail: nOdiamond@yahoo.co.jp

RECEIVED
SEP 1 2 2019
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS PRESENTED
1. Despite the US jailing former IRS employees for
stolen identity refund fraud, the IRS still refuses to
refund the legitimate taxpayer's overpayments.
Inconsistent administrative transcripts reveal
ongoing corruption of IRS records. Despite statutes
designed to make victims whole, the government and
courts repeatedly deny jurisdiction, Do US
non-resident citizens have any right to recovery of
illegally retained tax overpayments, and to
compensation for unauthorized collection actions?
2. A US District Court neither filed nor returned
documents submitted for filing, and denied receiving
a witness's notarized declaration despite its server
holding the return receipt for USPS certified mail
signed by a court employee. Is dismissal with
prejudice a proper method to handle a District Court's
destruction of documents?

1

11

LIST OF PARTIES
All parties appear in the caption of the case on the
cover page.
RELATED CASES
Diamond v. United States and Unknown Employees
of the United States, No. 2U7-CV-06327-ODW (PJW),
United States District Court for the Central District
of California. Judgment entered February 15, 2018.
Diamond v. United States and Unknown Employees
of the United States, No. 18-55376, United States
Court of Appeals for the Ninth Circuit. Judgment
entered April 23, 2019.

Ill

TABLE OF CONTENTS
1
QUESTIONS PRESENTED.................................
11
LIST OF PARTIES................................................
n
RELATED CASES................................................
m
TABLE OF CONTENTS.......................................
v
TABLE OF AUTHORITIES CITED....................
1
OPINIONS BELOW.............................................
1
JURISDICTION...................................................
CONSTITUTIONAL PROVISIONS, TREATIES
STATUTES, ORDINANCES, AND REGULATIONS
2
INVOLVED................................................
11
STATEMENT OF THE CASE.................
23
REASONS FOR GRANTING THE WRIT
28
CONCLUSION..........................................
28
NOTIFICATION CONCERNING MAIL..

INDEX TO APPENDICES
Appendix A, Memorandum of the United States Court
of Appeals for the Ninth Circuit, Filed April 23,
2019........................................................................... la
Appendix B, Order of the United States District
Court for the Central District of California, Filed
February 15, 2018.................................................... 3a
Appendix C, Denial of Panel Rehearing by United
States Court of Appeals for the Ninth Circuit, Filed
10a
July 18, 2019
Appendix D, Treasury Inspector General's publication
of details of former IRS employee Monica Hernandez,
11a
Dated May 1, 2011
Appendix E, Assistant Attorney General's report to
Congress on stolen identity refund fraud, Dated April
12a
10, 2013
Appendix F, Declaration of Ronal Francis Guilmette,
13a
Dated November 9, 2013

IV

Appendix G, Letter from US Court of Federal Claims,
Dated May 1, 2014....................................................... 17a
Appendix H, Civil Minutes of District Court, Filed
19a
January 30, 2015
Appendix I, USPS Return Receipt for Certified Mail,
21a
Dated December 24, 2013
Appendix J, Order of the United States Tax Court,
Dated December 12, 2011......................................... 22a
Appendix K, IRS Ruling on Federal Tort Claim,
mailed March 1, 2017................................................ 23a
Appendix L, IRS publication "National Taxpayer
Advocate 2011 Annual Report to Congress Executive
Summary Preface & Highlights", Dated December 31,

2011

24a

V

TABLE OF AUTHORITIES CITED
PAGE NUMBERS
CASES
Diamond v. Commissioner ofInternal Revenue, US
Tax Court No. 14482-10SL (USTC 2013)
16, 19, 20, 14a, 22a
(norrreviewable)
Diamond et al. v. Commissioner ofInternal Revenue,
16, 19
US Tax Court No. 5516-12SL (USTC 2013)
Diamond v. Commissioner ofInternal Revenue, US
Tax Court No. 5518-12SL (USTC 2012).................... 16
Diamond et al. v. United States, 107 Fed. Cl. 702
13, 20, 4a
(2012)
Diamond et al. v. United States, Fed. Cir. No.
2013-5036, Dkt. 29*2 (September 12, 2013)......... 13
Diamond et al. v. United States, 115 Fed. Cl. 516
14, 4a
(2014)
Diamond v. United States, Fed. Cir. No. 2014-5088,
(February 10, 2015)................................................... 14
Diamond v. United States, No. CV 13-8042-GHK
17, 20, 21, 22,
(AGR) (CD California 2015)
4a, 13a, 19a .
Diamond v. United States, No. 15-55334 (9th Cir.
18, 21, 22
2017)
Diamond v. United States, No. CV 14-9196-GHK
18, 4a
(AGR) (CD California 2015)
Diamond v. United States, No. 15-56100 (9th Cir.
2017)................................................................................. 18
Diamond v. Commissioner ofInternal Revenue, US
Tax Court No. 4029-17 (USTC 2017)........................ 17
Diamond v. Commissioner ofInternal Revenue
Service, US Court of Appeals for the D.C. Circuit No.
17
17-1169 (D.C. Cir. 2018)............................
23, 24, 25
Bull v. United States, 295 US 247 (1935)
13, 15, 17, 19, 27
Cook v. Tait, 265 US 47 (1924)
Garner v. United States, 424 U.S. 648, 661-63
14
(1976).......................................................................

VI

Greene-Thapedi v. Commissioner ofInternal Revenue,
16
126 TC 1 (USTC 2006)........................ ..........
17
US v. Kelley, 539 F.2d 1199 (9th Cir. 1976)
Shelton v. Commissioner ofInternal Revenue, 63 T.C.
17
193 (USTC 1974)
United States v. Silva-Chavez, 888 F.2d 1481 (5th Cir.
15
1989)..........................................................................
United States v. Sullivan, 274 U.S. 259, 263-64
14
(1927).......... ;.v...........................................................
Trefryv. Commissioner ofInternal Revenue, 10 BTA
16
134 (BTA 1928)
PAGE NUMBERS
STATUTES AND RULES
Fifth Amendment to the United States
i, 2, 14, 15, 17, 24, 25
Constitution
2, 14
United States -... Income Tax Convention
1
28 USC section 1254(l)................................
..........................
2,
4,
11,
15
28 USC section 610 ..
...............................2, 11, la
28 USC section 1291
.............................2, 3, 4, 11
28 USC section 1346
3, 11, 15, 19, 27, 2a, 6a, 7a
28 USC section 1402
.......................................
4, 11
28 USC section 1491
....................................... 4, 14
28 USC section 1500
....................4, 5, 11, 15, 19
28 USC section 1631
....................................... 5, 18
26 USC section 1462
....................................... 5, 12
26 USC section 3406
...........................5, 6, 22, 8a
26 USC section 6103
................................. 6, 7, 18
26 USC section 6201
....................................... 7, 17
26 USC section 6203
.............................6, 7, 8, 16
26 USC section 6213
......................................8, 18
26 USC section 6401
........8,
9, 11, 17, 19, 20, 25
26 USC section 7433
........................ 9, 11, 15, 19
26 USC section 7701
..................9, 10, 11, 16, 19
26 USC section 7805
........................ 9, 10, 11, 19
26 CFR 601.101.......
Internal Revenue Manual - 4.8.9.3 Criteria for

Vll

Issuance........................................................
IRS Tax Topic 307 - Backup Withholding

10, 16
10, 13

PAGE NUMBERS
OTHER
Treasury Inspector General's public posting of details
i, 12
of former IRS employee Monica Hernandez
13, 23, 11a
Assistant Attorney General's report to Congress on
i, 14, 24, 12a
stolen identity refund fraud
IRS publication "National Taxpayer Advocate 2011
Annual Report to Congress Executive Summary
13, 25, 26, 24a
Preface & Highlights"

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari
issue to review the judgment below.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Ninth Circuit appears at Appendix A to the
petition and is not published in the Federal Register
at
Google
published
is
but
by
https 7/scholar, google.ca/scholar_case?case=73851286
73489117700&q=&hl=en&as_sdt=4,lU,129 i
The opinion of the United States District Court
for the Central District of California appears at
Appendix B to the petition and is not published in the
Federal Register but is published by Google at
https7/scholar.google.ca/scholar_case?case=85638470
62375973594&q=&hl=en&scisbd=2&as_sdt=4,321 1
JURISDICTION
The date on which the United States Court of
Appeals decided petitioner's case was April 23, 2019.
A timely petition for rehearing was denied by the
United States Court of Appeals on July, 18 2019, and
a copy of the order denying rehearing appears at
Appendix C.
The jurisdiction of this Court is invoked under 28
USC section 1254(l).

1 Diamond did not request nor contact Google regarding these
publications.

1

2
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, ORDINANCES, AND REGULATIONS
INVOLVED
Fifth Amendment to the US Constitution:
nor shall any person be ...; nor shall be compelled
in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without
due process of law ...
United States - ... Income Tax Convention:
... Exchange of Information ...
... Assistance in Collection ...
28 USC section 610. Courts defined:
As used in this chapter the word "courts" includes
the courts of appeals and district courts of the
United States, the United States District Court for
the District of the Canal Zone, the District Court of
Guam, the District Court of the Virgin Islands, the
United States Court of Federal Claims, and the
Court of International Trade.
28 USC section 1291. Final decisions of district courts
The courts of appeals (other than the United States
Court of Appeals for the Federal Circuit) shall have
jurisdiction of appeals from all final decisions of the
district courts of the United States, the United
States District Court for the District of the Canal
Zone, the District Court of Guam, and the District
Court of the Virgin Islands, except where a direct
review may be had in the Supreme Court.
28 USC section 1346. United States as defendant:
(a) The district courts shall have original
jurisdiction, concurrent with the United States
Court of Federal Claims, of:
(l) Any civil action against the United States for
the recovery of any internal-revenue tax alleged to
have been erroneously or illegally assessed or

3
collected, or any penalty claimed to have been
collected without authority or any sum alleged to
have been excessive or in any manner wrongfully
collected under the internal-revenue laws!
(b) (l) Subject to the provisions of chapter 171 of
this title, the district courts, together with the
United States District Court for the District of the
Canal Zone and the District Court of the Virgin
Islands, shall have exclusive jurisdiction of civil
actions on claims against the United States, for
money damages, accruing on and after January 1,
1945, for injury or loss of property, or personal
injury or death caused by the negligent or wrongful
act or omission of any employee of the Government
while acting within the scope of his office or
employment, under circumstances where the
United States, if a private person, would be liable to
the claimant in accordance with the law of the place
where the act or omission occurred.
28 USC section 1402. United States as defendant
(a) Any civil action in a district court against the
United States under subsection (a) of section 1346
of this title may be prosecuted only:
(1) Except as provided in paragraph (2), in the
judicial district where the plaintiff resides;
(2) In the case of a civil action by a corporation
under paragraph (l) of subsection (a) of section
1346, in the judicial district in which is located
the principal place of business or principal office
or agency of the corporation; or if it has no
principal place of business or principal office or
agency in any judicial district (A) in the judicial
district in which is located the office to which was
made the return of the tax in respect of which the
claim is made, or (B) if no return was made, in the
judicial district in which lies the District of

4
foregoing
the
Columbia.
Notwithstanding
provisions of this paragraph a district court, for
the convenience of the parties and witnesses, in
the interest of justice, may transfer any such
action to any other district or division.
(b) Any civil action on a tort claim against the
United States under subsection (b) of section 1346
of this title may be prosecuted only in the judicial
district where the plaintiff resides or wherein the
act or omission complained of occurred.
28 USC section 1491. Claims against United States
generally; ...;
(a)
(l) The United States Court of Federal Claims
shall have jurisdiction to render judgment upon
any claim against the United States founded
either upon the Constitution, or any Act of
Congress or any regulation of an executive
department, or upon any express or implied
contract with the United States, or for liquidated
or unliquidated damages in cases not sounding in
tort.
28 USC section 1500. Pendency of claims in other
courts ^
The United States Court of Federal Claims shall
not have jurisdiction of any claim for or in respect to
which the plaintiff or his assignee has pending in
any other court any suit or process against the
United States ...
28 USC section 1631. Transfer to cure want of
jurisdiction:
Whenever a civil action is filed in a court as defined
in section 610 of this title or an appeal, including a
petition for review of administrative action, is
noticed for or filed with such a court and that court
finds that there is a want of jurisdiction, the court

5
shall, if it is in the interest of justice, transfer such
action or appeal to any other such court (or, for
cases within the jurisdiction of the United States
Tax Court, to that court) in which the action or
appeal could have been brought at the time it was
filed or noticed, and the action or appeal shall
proceed as if it had been filed in or noticed for the
court to which it is transferred on the date upon
which it was actually filed in or noticed for the court
from which it is transferred.
26 USC section 1462. Withheld tax as credit to
recipient of income:
Income on which any tax is required to be withheld
at the source under this chapter shall be included in
the return of the recipient of such income, but any
amount of tax so withheld shall be credited against
the amount of income tax as computed in such
return.
26 USC section 3406. Backup withholding:
(b) REPORTABLE PAYMENT, ETC. For purposes
of this section (l) REPORTABLE PAYMENT The term "reportable
payment" means (A) any reportable interest or dividend payment,
and
(B) any other reportable payment.
26 USC section 6103. Confidentiality and disclosure
of returns and return information:
(h) Disclosure to certain Federal officers and
employees for purposes of tax administration, etc.
(l) Department of the Treasury
Returns and return information shall, without
written request, be open to inspection by or
disclosure to officers and employees of the
Department of the Treasury whose official duties
require such inspection or disclosure for tax

6
administration purposes.
(2) Department of Justice
In a matter involving tax administration, a return
or return information shall be open to inspection by
or disclosure to officers and employees of the
Department of Justice (including United States
attorneys)...
(4) Disclosure in judicial and administrative tax
proceedings
A return or return information may be disclosed in
a Federal or State judicial or administrative
proceeding pertaining to tax administration, but
only (A) if the taxpayer is a party to the proceeding, or
the proceeding arose out of, or in connection with,
determining the taxpayer’s civil or criminal liability,
or the collection of such civil liability, in respect of
any tax imposed under this title; ...
26 USC section 6201. Assessment authority:
(a) Authority of Secretary
(3) Erroneous income tax prepayment credits
If on any return or claim for refund of income taxes
under subtitle A there is an overstatement of the
credit for income tax withheld at the source, or of
the amount paid as estimated income tax, the
amount so overstated which is allowed against the
tax shown on the return or which is allowed as a
credit or refund may be assessed by the Secretary in
the same manner as in the case of a mathematical
or clerical error appearing upon the return, except
that the provisions of section 6213(b)(2) (relating to
abatement of mathematical or clerical error
assessments) shall not apply with regard to any
assessment under this paragraph.
(d) Required reasonable verification of information
returns

7
In any court proceeding, if a taxpayer asserts a
reasonable dispute with respect to any item of
income reported on an information return filed with
the Secretary under subpart B or C of part III of
subchapter A of chapter 61 by a third party and the
taxpayer has fully cooperated with the Secretary
(including providing, within a reasonable period of
time, access to and inspection of all witnesses,
information, and documents within the control of
the taxpayer as reasonably requested by the
Secretary), the Secretary shall have the burden of
producing reasonable and probative information
concerning such deficiency in addition to such
information return.
26 USC section 6203. Method of assessment:
The assessment shall be made by recording the
liability of the taxpayer in the office of the Secretary
in accordance with rules or regulations prescribed
by the Secretary. Upon request of the taxpayer, the
Secretary shall furnish the taxpayer a copy of the
record of the assessment.
26 USC section 6213. Restrictions applicable to
deficiencies! petition to Tax Court:
(b) Exceptions to restrictions on assessment
(l) Assessments arising out of mathematical or
clerical errors
If the taxpayer is notified that, on account of a
mathematical or clerical error appearing on the
return, an amount of tax in excess of that shown on
the return is due, and that an assessment of the tax
has been or will be made on the basis of what would
have been the correct amount of tax but for the
mathematical or clerical error, such notice shall not
be considered as a notice of deficiency.... Each notice
under this paragraph shall set forth the error
alleged and an explanation thereof.

8
(2) Abatement of assessment of mathematical or
clerical errors
(A) Request for abatement
Notwithstanding section 6404 (b), a taxpayer may
file with the Secretary within 60 days after notice is
sent under paragraph (l) a request for an
abatement of any assessment specified in such
notice, and upon receipt of such request, the
Secretary shall abate the assessment. Any
reassessment of the tax with respect to which an
abatement is made under this subparagraph shall
be subject to the deficiency procedures prescribed
by this subchapter.
26 USC section 6401. Amounts treated as
Overpayments:
(b) Excessive credits
(l) In general
If the amount allowable as credits under subpart C
of part IV of subchapter A of chapter 1 (relating to
refundable credits) exceeds the tax imposed by
subtitle A (reduced by the credits allowable under
subparts A, B, D, G, H, I, and J of such part IV), the
amount of such excess shall be considered an
overpayment.
(c) Rule where no tax liability
An amount paid as tax shall not be considered not
to constitute an overpayment solely by reason of the
fact that there was no tax liability in respect of
which such amount was paid.
26 USC section 7433. Civil damages for certain
unauthorized collection actions:
(a) In general
If, in connection with any collection of Federal tax
with respect to a taxpayer, any officer or employee
of the Internal Revenue Service recklessly or
intentionally, or by reason of negligence, disregards

9
any provision of this title, or any regulation
promulgated under this title, such taxpayer may
bring a civil action for damages against the United
States in a district court of the United States.
Except as provided in section 7432, such civil action
shall be the exclusive remedy for recovering
damages resulting from such actions.
26 USC section 7701. Definitions:
(39) Persons residing outside United States
If any citizen or resident of the United States does
not reside in (and is not found in) any United States
judicial district, such citizen or resident shall be
treated as residing in the District of Columbia for
purposes of any provision of this title relating to (A) jurisdiction of courts, or
(B) enforcement of summons.
(50) Termination of United States citizenship
(A) In general
An individual shall not cease to be treated as a
United States citizen before the date on which the
individual’s citizenship is treated as relinquished
under section 877A(g)(4).
26 USC section 7805. Rules and regulations:
(a) AUTHORIZATION
Except where such authority is expressly given by
this title to any person other than an officer or
employee of the Treasury Department, the
Secretary shall prescribe all needful rules and
regulations for the enforcement of this title,
including all rules and regulations as may be
necessary by reason of any alteration of law in
relation to internal revenue.
26 CFR 601.101. Introduction:
(a) General. The Director, Foreign Operations
District, administers the internal revenue laws
applicable to taxpayers residing or doing business

10
abroad, ...
4.8.9.3 Criteria for
Internal Revenue Manual
Issuance
4.8.9.3 (07-09-2013)
Criteria for Issuance
1. A notice of deficiency must be issued when there
is a proposed tax deficiency with which the
taxpayer does not agree and: ...
C. The taxpayer requests the issuance of the notice
in order to petition the case to the Tax Court.
IRS Tax Topic 307:
Topic 307 - Backup Withholding
Payments subject to backup withholding: Backup
withholding can apply to most kinds of payments
reported on Form 1099, including:
... Payments by brokers and barter exchange
transactions (Form 1099-B (PDF)); ...
Credit for backup withholding: If you had income
tax withheld under the backup withholding rule,
report the federal income tax withholding (shown
on Form 1099) on your return for the year you
received the income.

11
STATEMENT OF THE CASE
On recovery of illegally retained overpayments,
though Diamond mistakenly inferred that US District
Court for the Central District of California would
have jurisdiction under 28 USC section 1346(a)(1),
and further mistakenly inferred that US District
Court for the District of Columbia District would have
jurisdiction under 28 USC section 1346(a)(1) and 26
USC section 7701 definition (39), in fact US Court of
Federal Claims has jurisdiction under 28 USC section
1346(a)(1) and 28 USC section 1491(a)(1). Though 28
USC section 1402(a)(1) denies jurisdiction to all US
district courts, 28 USC sections 1631 and 610
mandate transfer to US Court of Federal Claims
because that court has jurisdiction under 28 USC
sections 1346(a)(1) and 1491(a)(1).
On unauthorized collection actions, US District
Court for the Central District of California and all US
district courts have jurisdiction under 26 USC section
7433. Were IRS malfeasance to be considered tort, US
District Court for the District of Columbia District
would acquire jurisdiction under 28 USC sections
1346(b) and 1402(b) and 26 CFR 601.101, but this
alternative is moot because no one disputed the IRS's
ruling that IRS actions were collection actions,
appendix K.
US Court of Appeals for the Ninth Circuit had
jurisdiction under 28 USC section 1291 on the ruling
from the Central District of California.
Petitioner Diamond was a US citizen for all tax
years in dispute, but did not reside, work, nor operate
a business in the US. No one disputed that 26 USC
section 7701 definition (50) treats Diamond as a US
citizen. Beginning 1999 and including all tax years in
dispute, Diamond's non-resident alien spouse Zaida

12
Golena Del Rosario was treated as a US resident for
tax purposes, falling under US jurisdiction but not
exclusively so. Del Rosario did not reside, work, nor
operate a business in the US.
Diamond resided in Canada until 1987, in Japan
until 2019, and now in Canada. From 1976 to 2001
Diamond's accounts at Canadian stockbrokers were
subject to US withholding at rates set by treaty.
When the US introduced the Qualified Intermediary
system in 2002, Diamond's accounts became subject
to backup withholding under 26 USC section 3406
because Diamond relied on a letter from the Social
Security Administration in 1994 that Diamond was
eligible for a replacement social security number after
malfeasance by IRS and postal employees publicly
exposed Diamond's original SSN.
When stockbrokers reported US withholdings
solely on Canada's Form T-5 or mistakenly on US
Form 1042-S, the IRS refunded overpayments to
Diamond without dispute. But when stockbrokers
reported backup withholding on US Form 1099, the
IRS seized overpayments and accused Diamond of
frivolousness and fraud. For many years the IRS
refused to state what positions it held frivolous or
fraudulent. In 2012 there were news articles about
the jailing of IRS employee Monica Hernandez for
embezzlement, and in 2013 Diamond found details in
a government posting, appendix D. Hernandez
altered reports of withholding on Forms 1099‘B to
credit herself instead of legitimate beneficiaries. The
government report states that Form 1099 reports
withholding from interest and dividends, but the fact
is that Form 1099‘B reports withholding in the
amount of 30% of gross proceeds of sales of shares
under 26 USC section 3406(b)(1)(B), which can be
thousands of times greater than capital gain income

13
let alone interest or dividends, yielding large profits
to those who can cover up embezzlement. The IRS
knows; it cites Form 1099-B in its Tax Topic 307.
Cook v. Tait, 265 US 47 (1924) is the basis for the
US to tax non-resident citizens2 and their spouses,
but it does not compel other countries to copy all
details of US practices in employment, social
programs, and taxes. US tax returns for non-resident
citizens have been likened to forcing square pegs into
round holes. Diamond made his best efforts. Diamond
wrote and signed honest jurats under penalty of
perjury, detailing problems that he could not solve
and his efforts to deal with them. When stockbrokers
reported US withholdings solely on Form T-5 or
1042-S, from 1976 to 2001, and again for 2003 and
2004 when Diamond reported the IRS's accusation of
for
2002,
the
IRS
refunded
frivolousness
overpayments to Diamond without dispute. The IRS
waited until 2010 before stating that honest
declarations were a reason for holding returns to be
frivolous. Diamond complied, unwillingly committing
perjury on all refiled and newly filed returns, and the
IRS accepted all perjured returns but seized refunds
owing. The IRS's Taxpayer Advocate reported to
Congress the reason why Diamond and thousands of
other honest taxpayers are no longer US citizens,
appendix L. However, on reading about IRS employee
Monica Hernandez, it no longer appears that honesty
was a reason for accusations of frivolousness.
In Diamond et al. v. US, 107 Fed. Cl. 702 (2012),
affd Diamond et al. v. US, Fed. Cir. No. 2013-5036,
Dkt. 29-2 (Fed. Cir. 2013), cert, denied, the Federal
2 "In other words, the principle was declared that the
government, by its very nature, benefits the citizen and his
property wherever found and, therefore, has the power to make
the benefit complete."

14
Circuit ruled that Court of Federal Claims lacked
jurisdiction for 2005, by overturning the IRS's
acceptance of the refiled 2005 return of Diamond and
Del Rosario because Diamond honestly reported the
status of Del Rosario's SSN (applied for in 1994,
never granted nor rejected) and ITIN (applied for and
rejected 4 times) instead of reporting a number for
her, and because (due to a tax treaty) Del Rosario
depended on Fifth Amendment rights upheld by US v.
Sullivan, 274 U.S. 259, 263-64 (1927) and Garner v.
US, 424 U.S. 648, 661-63 (1976). 3.4 However, in
Diamond et al. v. US, 115 Fed. Cl. 516 (2014), affd
Diamond v. United States, Fed. Cir. No. 2014-5088,
(Fed. Cir. 2015), cert, denied, the Federal Circuit
ruled that Court of Federal Claims possessed
jurisdiction for 2007, by upholding the IRS's
acceptance of the refiled 2007 return of Diamond and
Del Rosario, even though Diamond honestly reported
the status of Del Rosario's SSN and ITIN applications
and Del Rosario's dependence on Fifth Amendment
rights identical to the 2005 return. As one judge was
on both panels of this intra-circuit split, it is actually
an intra-judge split.
The Assistant Attorney General for Taxation
joined in too. Kathryn Keneally reported to Congress,
appendix E, "the IRS will make good on any refund
that is due to the taxpayer" while at the same time
she and subordinates prevented courts from letting
the IRS make good.
In 2014 Diamond complied with the Federal
3 Under .28 USC section 1500, Court of Federal Claims should
have lacked jurisdiction on these issues as they had already
been argued in Tax Court; see appendix J.
4 The IRS continued to maintain that it accepted the refiled
2005 return despite the Federal Circuit ruling, and sometimes
stated that it should have paid the refund owing.

15
Circuit, submitting an amended joint return for 2005
on Form 1040X, fabricating a social security number
for Del Rosario and writing documents to support
Forms 2555 in Diamond's name while preserving Del
Rosario's Fifth Amendment rights. SSN fabrication
used to be illegal, see US v. Silva-Chavez, 888 F.2d
1481 (5th Cir. 1989), but the Federeal Circuit made it
mandatory. Again the IRS accepted the refiled return
but seized the refund.
Diamond learned he needs a jury, so if the DOJ
again want to overturn the IRS's acceptance of refiled
2005 returns but uphold the IRS's acceptance of
refiled 2007 returns, the DOJ can explain its
positions to a jury instead of judges. Diamond filed
suit in US District Court for the Central District of
California.
However, the ruling in Cook v. Tait is obsolete.
The Ninth Circuit correctly observed that Congress,
by enacting 28 USC section 1402, denies jury trials to
US non-resident citizens. When the citizen and his
property are found outside the US, the government no
longer makes the benefit complete. The Ninth Circuit
correctly denied transfer to US District Court for the
District of Columbia District because 26 USC section
7701 definition (39) only applies to actions brought
under Title 26, not Title 28. US Court of Federal
Claims should be the only venue with jurisdiction
over US non-resident citizens.
In the present case, US District Court for the
Central District of California and US Court of .
Appeals for the Ninth Circuit went further by
disregarding the statute 28 USC section 1631. This
section and its reference to 28 USC section 610
compel the District Court to transfer the refund
action to Court of Federal Claims. Without a jury,
perhaps the Federal Circuit will make another

16
intra-panel split between tax years 2005 and 20075,
but the Ninth Circuit did not even give a reason for
denying this transfer.
In Diamond v. CIR, US Tax Court No.
14482-10SL (USTC 2013), Tax Court lacked
jurisdiction to order a refund because of
Greene-Thapedi v. CIR, 126 TC 1 (USTC 2006). The
IRS proved it is correct to penalize writers of honest
declarations because they impede administration of
US taxes, while preventing consideration of
overpayments which exceeded the penalty. In
Diamond et al. v. CIR, US Tax Court No. 5516-12SL
(USTC 2013), the IRS conceded 100% of alleged
penalties but again prevented consideration of
overpayments. In Diamond v. CIR, US Tax Court No.
5518-12SL (USTC 2012), the IRS admitted that it had
not assessed any penalty, but later the IRS illegally
transferred the credit for 2007 to 2002 and then
erased records of the credit. Again no court accepted
jurisdiction on refunds owing.
The IRS told Diamond telephonically that the
IRS made an administrative record of alleged
mathematical or clerical error for 2005 but refused to
issue Diamond a record thereof. 26 USC section
6213(b)(2) compels the IRS to abate on demand but
the IRS refused. The IRS further refused to comply
with deficiency procedures mandated by the same
section.
Internal
Revenue
Manual
section
4.8.9.3(l)(C), by authority of 26 USC section 7805,
compels the IRS to issue a Notice of Deficiency on
demand by the taxpayer but again the IRS refused. If
the IRS produces an invalid Notice of Deficiency then
US Tax Court lacks jurisdiction and the IRS must
make a refund, see Trefry v. CIR, 10 BTA 134 (BTA
5 Though no one has disputed the IRS's acceptance of the Form
1040X amended return for 2005.

17
1928) and Shelton v. CIR, 63 T.C. 193 (USTC 1974);
but if the IRS destroys or conceals the invalid notice
then Tax Court lacks jurisdiction and the IRS keeps
the illegally collected overpayment, see
Diamond v. CIR, US Tax Court No. 4029-17 (USTC
2017), affd Diamond v. Commissioner of Internal
Revenue Service, US Court of Appeals for the D.C.
Circuit No. 17-1169 (D.C. Cir. 2018), cert, denied.
Any justification for the IRS to collect more tax
than declared must depend on assessment under 26
USC section 6203; see US v. Kelley, 539 F.2d 1199
(9th Cir. 1976), cert, denied. The IRS ignored
Diamond's demands for copies of assessments.
After Diamond initiated refund suits in Court of
Federal Claims, the IRS belatedly credited Diamond's
overpayments for 2006, 2007, and 2008, but not the
vastly larger payment for 2005. However, the IRS
seized and illegally handled overpayments for 2006
and 2007, though possibly legally for 2008.
The courts in this case also dismissed the
possibility of a Bivens case, despite the Fifth
Amendment prohibiting deprivation of property
without due process (except of course for the correct
amount of tax legally authorized under the Sixteenth
Amendment).
In 2013, Ameritrade informed Diamond that he
could subpoena a representative of Ameritrade to
testify on the accuracy of Forms 1099 and 1042-S by
service on Corporation Service Co., but testimony is
impossible when every court denies jurisdiction.
Unless certiorari is granted, the ruling in Cook V.
Tait stands entirely demolished, as no court can order
refund of overpayments by a US non-resident citizen.
Upon learning about Monica Hernandez,
Diamond first filed a Federal Tort Claim and sued in
Diamond v. US, No. CV 13-8042-GHK (AGR) (CD

18
California 2015), affd Diamond v. US, No. 15-55334
(9th Cir. 2017). Fraud violates statutes of both
California and the District of Columbia. However,
Diamond subsequently learned about 26 USC section
7433 and came into agreement with the IRS's ruling
that the IRS's actions pertained to collection of taxes.
Diamond submitted an administrative claim for
unauthorized collection actions and sued in Diamond
v. US, No. CV 14-9196-GHK (AGR) (CD California
2015), affd Diamond v. US, No. 15-56100 (9th Cir.
2017). The courts ruled that Diamond's causes of
action relied on conjectures, and dismissed for lack of
jurisdiction to prevent Diamond from undertaking
discovery to determine a preponderance of the
evidence.
In the present case, no conjecture is involved. The
IRS's failures to make credits mandated by 26 USC
sections 1462 and 6401, failures to contact payers
mandated by 26 USC section 6201(d), illegal transfers
of credits and erasures of credits, and failures to
provide copies of assessments mandated by 26 USC
section 6203 are proven. The IRS's refusals to issue
mandatory statutory notices are proven. The IRS's
repeated corrupt alterations to administrative
records are proven, for example where one transcript
shows timely filing of an original return but months
later the return no longer being on file, but where a
different transcript deletes records of the timely filing
and subsequent unfiling. Courts have tendencies to
rely on Form 4340 transcripts, but the IRS's
transcripts show that Form 4340 is more egregiously
corrupt than other forms. The IRS's purging of files
for 2005 while litigation for that tax year was ongoing
is proven.
In the present case, Diamond first submitted an
administrative claim for unauthorized collection

19
actions and next submitted a Federal Tort Claim. The
IRS denied the tort claim because its actions
pertained to collection of tax. No one disputed the
IRS's ruling that its actions pertained to collection of
tax. No one even disputed that the IRS's actions were
unauthorized. The DOJ alleged that the IRS did not
file a lien against Diamond, and Diamond does not
know if it is true or not, but the IRS stated in
Diamond v. CIR, US Tax Court No. 14482-lOSL
(USTC 2013) (non-reviewable) and Diamond et al. v.
CIR, US Tax Court No. 5516-12SL (USTC 2013) that
the IRS did file liens against Diamond.
26 USC section 7433 grants jurisdiction to all US
district courts on unauthorized collection actions.
Though 26 USC section 7701 definition (39) further
grants jurisdiction as if the non-resident citizen were
a resident of the District of Columbia, it does not
constrain the choice of venue. 28 USC section 1402(a)
does not constrain the venue of an action brought
under title 26 USC. Had anyone disputed the IRS's
ruling that its actions pertained to collection of tax,
then hypothetically 28 USC section 1402(b) would
constrain the venue of a tort case whereupon 28 USC
section 1631 together with 26 CFR 601.101 would
compel a transfer to US District Court for the District
of Columbia District (as the Director, Foreign
Operations District, whose actions and omissions
would then be torts, had his last known address in
the District of Columbia where the IRS signed for
Diamond's registered letter); but this is moot because
no one disputed the IRS's ruling that its actions
pertained to collection. No statute deprives US
District Court for the Central District of California of
the jurisdiction that 26 USC section 7433 confers. The
courts in this case gave no reason at all for dismissing
the cause of action brought under section 7433.

20
Again, unless certiorari is granted, the ruling in
Cook V. Tait stands entirely demolished, as courts
deny US non-resident citizens the rights provided by
26 USC section 7433.
On the District Court's destruction of documents,
courts properly observed that public disclosure of
social security numbers is res judicata but ignored
the matter of the court destroying documents.
In Diamond v. CIR, US Tax Court No.
14482-10SL (USTC 2013), the IRS disclosed
Diamond's social security number to the public by
filing an unredacted exhibit. In Diamond et al. v. US,
107 Fed. Cl. 702 (2012), the DOJ disclosed Diamond's
social security number to the public by filing an
unredacted exhibit in an action that the DOJ
described as intentional. Ronal Guilmette is
Diamond's friend but not authorized to obtain
Diamond's social security number. Without any
special privileges he obtained a certified copy of the
IRS's exhibit and a PACER download of the DOJ's
exhibit, signed a declaration in front of a public
notary in California, appendix F, and sent the
notarized declaration to Diamond's sister Deborah
Strom in California. When Guilmette requested a
certified copy of the DOJ's brief, the Court of Federal
Claims encashed Guilmette's payment for the entire
document, but subsequently sealed the DOJ's exhibit
and refunded Guilmette's payment. Court of Federal
Claims wrote a letter to Diamond explaining that
Federal Claims disagrees with the position of the
DOJ and 9th Circuit that social security numbers are
supposed to be disclosed to the public in court filings,
appendix G.
In preparation for Diamond v. US% No. CV
13-8042-GHK (AGR) (CD California 2015), the Pro Se
Clinic at the District Court advised Diamond and

21
server Deborah Strom that Strom should serve copies
of Guilmette's notarized declaration on the US and its
agencies by certified mail with return receipts and
next serve originals and conformed copies of proof of
service with Guilmette's notarized declaration with
copies of the aforementioned return receipts and a
stamped self-addressed envelope on the District
Court again by certified mail with return receipt.
Diamond asked why a return receipt was needed for
service on the District Court and the Pro Se Clinic
answered that sometimes the District Court
mishandles documents. The Pro Se Clinic was right.
Even though the certified mail return receipt signed
by District Court employee J. Lopez was returned to
Strom, appendix I, and the USPS web site showed
that certified mail number 7012 3460 0000 9387 8442
was delivered, in Diamond v. US, No. CV
13-8042-GHK (AGR) (CD California 2015), affd
Diamond v. US, No. 15-55334 (9th Cir. 2017), the
District Court ruled that the court had not received
the document, appendix H.
Although the court destroyed the original
notarized declaration (likely replaceable though next
time Guilmette will be a hostile witness), Diamond
has a PDF copy scanned by Strom. When the District
Court did not return to Strom a "Filed" stamped copy
of Strom's filing, Diamond wrote a brief attaching
copies of Guilmette's notarized declaration and the
Court of Federal Claims' letter as exhibits. Diamond
mailed that brief together with briefs on other topics
and one Certificate of Service listing all the
documents being served at that time. The District
Court filed all except that one brief. The District
Court filed the Certificate of Service listing all of the
briefs Diamond served, and filed the EMS (express
mail) shipping label showing the weight of the

22
package written by Japan Post's employee. Diamond
pointed out that it is simple to weigh the documents
that the District Court filed, weigh the envelope in
which they were shipped, and observe that the
shortfall is the weight of the missing brief.
In the present case, the courts dismissed
Diamond's report of the District Court's malfeasance.
The courts correctly observed that they had already
ruled on merits, in Diamond v. US, No. CV
13-8042-GHK (AGR) (CD California 2015), affd
Diamond v. US, No. 15-55334 (9th Cir. 2017), that 26
USC section 6103(h)(4)(A) authorizes public
disclosure of social security numbers when a return is
litigated. However, the courts ignored the fact that
Diamond's complaint was not about the public
disclosure of SSN, but about the District Court's
malfeasance in destroying Guilmette's notarized
declaration and Diamond's brief that called attention
to the declaration. One must wonder why the District
Court destroyed those documents instead of filing
them, since the statutory authorization to disclose
SSNs publicly means the IRS and DOJ had nothing to
be embarrassed about.
Diamond here asks if dismissal with prejudice is
a proper a proper method to handle a District Court's
destruction of documents.

23
REASONS FOR GRANTING THE WRIT
"But taxes are the life-blood of government", Bull
v. US, 295 US 247 (1935). Taxes are not supposed to
be the life-blood of embezzlers. However, criminals
have figured out every step of the process: alter
records of information returns from payers to transfer
withheld funds to thieves, fabricate a record of an
alleged mathematical or clerical error but prevent
statutory notices of mathematical or clerical errors
from being issued to rightful beneficiaries, alter
records of tax returns to erase claims for withholding
and forge fabricated baseless claims for foreign tax
credits, mark the altered records of returns as
frivolous and fraudulent, refuse to contact payers and
withholding agents, arrange that even if an honest
IRS employee encounters the records she or he will
provide no assistance on the presumption the filer is a
tax protester, add to the list of frivolous positions an
"obviously false" claim for withholding that is
factually true because withholding (30% of gross sales
proceeds) often far exceeds actual income (capital
gain), and create records of "no return on file" to
further mislead appeals officers. Criminals figured
out to allege fraud and frivolousness, erase records of
both the filing and subsequent unfiling of original
returns, and refuse to issue mandatory statutory
notices in order to prevent courts from reviewing
where the withheld money went.
A few identity thieves in the IRS were finally
caught and jailed, but they are bit players. The ring
leaders have not been caught. Even when TIGTA
reported the jailing of Monica Hernandez for
embezzling from Form 1099-B, TIGTA described
Form 1099 as reporting withholding from interest
and dividends instead of describing the actual kind of

24
withholding, 30% of gross proceeds from sales of
shares, that is actually reported on Form 1099-B.
However, the ring leaders don't appear to be in TIGTA
either.
The DOJ persuaded courts that a filer is frivolous
in honestly declaring the status of a social security
number (applied for, neither granted nor rejected)
and Individual Taxpayer Identification Number
(rejected) even though the IRS itself stamped "ITIN
Rejected" on a return. The DOJ persuaded courts that
a filer is frivolous in complying with US Supreme
Court rulings that upheld the Fifth Amendment
privilege as to the source of income. Tax Court and
the IRS accepted sealed testimony, protected the
related documents, and confirmed that income was
properly reported, but the DOJ persuaded other
courts not to accept the same. The Assistant Attorney
General for Taxation told Congress that the IRS will
always make good to victims of stolen identity refund
fraud while at the same time she persuaded courts
not to make good to victims of fraudulent IRS
employees. The DOJ persuaded courts to overturn the
IRS's acceptance of a return. One might wonder why
the DOJ vigorously opposes court review of where the
withheld money went. There have been news reports
of criminal organizations infiltrating FBI offices.
Perhaps the DOJ's Tax Division is infiltrated too.
Finally, one must wonder why courts themselves
refuse to review where the withheld money went.
Bull v. US, Id:
"In recognition of the fact that erroneous
will
determinations
and
assessments
inevitably occur, the statutes, in a spirit of
fairness, invariably afford the taxpayer an
opportunity at some stage to have mistakes
rectified. ... If that which the sovereign retains

25
was unjustly taken in violation of its own
statute, the withholding is wrongful.
Restitution is owed the taxpayer. ... The
United States, we have held, cannot, as
against the claim of an innocent party, hold
his money which has gone into its treasury by
means of the fraud of its agent. United States
v. State Bank, 96 U.S. 30."
Congress also knew that fraudulent agents
operate in the government. Congress enacted laws
guaranteeing the right to pay the correct amount of
tax, and 26 USC section 7433.
The Supreme Court, Congress, the IRS, TIGTA,
and even DOJ know that it is not in your country's
interest to let tax money be the life-blood of thieves,
nor to deny making whole to the victims, though some
courts and agencies ignore their mandate when they
have inside operators to protect.
The roles of plaintiff and defendant are reversed
in tax cases, but victims must be allowed to due
process.
A Constitutional problem arises when courts'
dismissals leave overpayments in the hands of
corrupt collectors. The Fifth Amendment expressly
prohibits deprivation of property without due process
(except of course the legally authorized amount of tax
allowed by the Sixteenth Amendment).
Another Constitutional problem arises when
some circuits limit evidence to the administrative
record at the time of a Collection Due Process
Hearing. As the IRS does not reveal its record until
after the CDP Hearing (and continues altering its
record after that), the victim is denied notice and
opportunity.
The IRS's "National Taxpayer Advocate 2011
Annual Report to Congress Executive Summary

26
Preface & Highlights" describes thousands of
renunciations of US citizenship by honest taxpayers
who have no other solution, appendix L. Most
non-resident citizens cannot afford expense or time to
fight; it is better just to renounce. Petitioner cannot
afford this fight either, with his salary dropping to
$7,500 this year and soon to zero, Japanese social
security $7,200 per year, dividends $9,300 per year,
and legal expenses (including the cost of printing
petitions) coming from savings that were supposed to
be used for retirement. Diamond wishes he had
known to renounce earlier.
The US president, secretary of state, and
Congress condemned Russia's abuses of wealthy
Russians Mikhail Khodorkovsky and Sergei
Magnitsky. America's abuses of low income
Americans should be even more repugnant. The poor
are more numerous. Neither the Russian nor
American republics will fall as a result of the ways
their governments abuse their citizens, but all
pretences of rule of law and due process and human
rights have fallen away.
When the IRS can violate court orders; when the
IRS, DOJ, and lower courts can violate Supreme
Court rulings; when courts impose further penalties
on victims who call attention to illegal actions; when
courts make up purported facts which even the IRS
doesn't believe; when courts misquote laws to serve
their biases; and when courts destroy evidence; there
can only be despair at the state of the US court
system. One can only wonder what kind of courts
impose penalties on honesty but accept and compel
perjury.
US courts misrepresent laws, misrepresent facts,
cannot keep their lies straight from one case to
another, and sometimes cannot keep their lies

27
straight within a single case. US courts designate
rulings as unpublished and non-precedential to hide
their misrepresentations of laws, misrepresentations
of facts, misrepresentations of precedents, and
protection of corrupt collectors and ring leaders who
have not been caught. They need to be directed to do
their job properly. Congress enacted the Bill of Rights
and legislation to protect victims from corrupt actors
in all branches of the US government.
The overturn of Cook v. Tait, 265 US 47 (1924),
harms Diamond by denying a jury trial, but it
benefits nine million non-residents of the US who still
hold US citizenship. For the greater good, Diamond
does not seek review of the part of the Ninth Circuit's
ruling observing that Congress, by enacting 28 USC
section 1402(a), overturned the Supreme Court's
ruling in Cook v. Tait. However, as the Supreme Court
considered Cook v. Tait to be a case of national
interest, Diamond will not object if the US seeks
review of this part of the Ninth Circuit's ruling.

28
CONCLUSION
The thieves and their accomplices have succeeded in
injuring Diamond to the point where even the sought
compensation cannot return him to a normal life. But
for the good of your country, the Court should
consider what kind of country you wish to be in
charge of. The writ should be granted.
NOTIFICATION CONCERNING MAIL
It is beyond petitioner's control when the court mails
a document by means normally calculated to take
thirteen (13) days for delivery, or when the court
mails a document without proper postage.
Concurrent service by e-mail can alleviate delays.

Respectfully submitted,
Norman Douglas Diamond, pro se
5404 Alexander Crescent
Niagara Falls, Ontario, L2E 2T8
Canada
Tel.'- 905-371-6494
e-mail: nOdiamond@yahoo.co.jp

